v
r~Ist]3~

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
March 6, 2020
Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Living Essentials, LLC; Innovation Ventures, LLC v. State of Washington, No. 19-988

Dear Mr. Harris:
I am counsel of record for Respondent State of Washington in the above-captioned case. The Court has
called for a response to the cert petition and set the deadline for the State's Brief In Opposition as
March 30, 2020.
Pursuant to Rule 30.4, Washington requests a 60-day extension to file a brief in opposition, to May 29,
2020. Counsel for petitioners do not object to the extension.
This request for additional time is made to accommodate other concurrent deadlines, particularly
briefing and oral argument in Chiafalo v. Washington, No. 19-465 (U.S.), in which the State's merits
brief is due April 1, 2020, with oral argument on April 28, 2020. The State's small team of attorneys that
work on U.S. Supreme Court matters will be extremely busy with that case through the argument, and
will also be filing a brief in response to the motion to file an original action by Montana and Wyoming
against Washington, No. 220152, currently due March 24, 2020, and a brief in opposition in Njonge v.
Gilbert, No. 19-7426, currently due April 1, 2020. The State is requesting an extension in those cases as
well. We will also be briefing and arguing several pending cases in the Washington Supreme Court in
the meantime, including my argument in SEX 775 v. Department of Social & Health Services,
No. 97216-8, on March 17, 2020. Our brief in opposition in this case will also require additional time to
respond to the already filed and anticipated amicus briefs supporting the petition.
We do not believe that the extension will unduly delay consideration of the petition by the Court, as it
may still be considered before the summer recess. We also respectfully submit that the requested
extension will allow sufficient time for our office to provide a more thorough and helpful response to
the Court.
Thank you for your consideration of this request.
Sincere v.,

.,C~'

Peter Gonick
Deputy Solicitor General
(360) 753-6245

wro
cc:

William S. Consovoy
J. Michael Connolly
Jordan M. Call
Counsel for Petitioners

